            Peace Corps
            Office of Inspector General




PC/Kenya office in the Nairobi suburbs                   Tea plantation near Kericho, Kenya




                                         Flag of Kenya


                           Final Audit Report:
                           Peace Corps/Kenya
                                    IG-10-12-A



                               Steven Kaffen
                 Acting Assistant Inspector General for Audit

                                                                   September 2010
                               EXECUTIVE SUMMARY

We found that Peace Corps/Kenya’s financial and administrative operations and its
compliance with agency policies and federal regulations required improvement. Some of
the more important findings are summarized below.

Imprest Fund Management
The quarterly and monthly imprest fund verifications did not include a review of
reconciling documents and their proper recording on the cash reconciliation statement.
Complete verifications are an essential internal control over the post’s most liquid asset.

Volunteer Allowances
The 2009 living allowance market basket survey was ineffective in validating the results
of the Volunteer living allowance survey. Moreover, the post did not perform a living
allowance market basket survey in 2008, and did not perform settling-in allowance
independent price surveys for the Volunteer groups that swore in during 2008 and 2009.
Additionally, the results of the settling-in surveys submitted by the Volunteers were not
analyzed, including a determination of response rates and results, and conclusions were
not made regarding the allowances’ adequacy. The above conditions are significant since
Volunteers depend on timely and adequate allowances for their health and well-being.

Billings and Collections
The billing officer, who issues bills of collections, is responsible for monitoring the status
of billings and following up delinquencies. However, this function was being performed
by the collections officer. Further, billings for personal phone usage were sometimes
issued and collected late in 2007-2008, due to certain staff not promptly reviewing the
phone bills to identify personal calls. This issue is no longer a problem at the post, and
no recommendation is being made. Also, bills were issued regardless of amount, as low
as $1 or less, resulting in an inefficient use of resources.

Property Management
Controls and procedures over post property, which are essential for proper accountability
and oversight, were inadequate or, in some cases, nonexistent. The same staff member
maintained the inventory listing of information technology (IT) equipment and performed
the 2009 physical inventory of IT property, violating the internal control requirement for
segregation of duties. Moreover, the post did not perform a physical inventory
verification of its non-IT property in 2009. In addition, the 2008 listing of office property
was not updated during the year for changes. Furthermore, a new listing prepared in
2009 was not reconciled with the 2008 listing and differences identified and followed up.
The property control officer and the administrative officer did not perform periodic
reconciliations as required. Also, we noted property that had no Peace Corps tag or two
tags, one of which was Peace Corps’. Without adequate and effective internal controls
and procedures over property, including maintaining and updating inventory records and



Final Audit Report: Peace Corps/Kenya                                                            i
performing periodic verifications, property could well go missing, with a resulting loss to
the agency.

Vehicles Management
The vehicle usage logs were not reviewed, initialed, and dated by all required individuals
to verify that the post’s vehicles were being used appropriately. Further, since 2007, an
unused Peace Corps vehicle has been sitting idle on the post’s premises awaiting
registration documents so that it could be sold. The post actually sold the vehicle in
November 2007 without the required registration documents for 1,731,000 Kenya
shillings or about $23,000. However, the post was required to return the proceeds when
the buyer was unable to register the vehicle. We were informed by the post that the
registration documents were received in January 2010.

Personnel Management and PSC contracts
The post miscalculated the 2009 and 2010 contracts of its personal services contractors
(PSCs). The post modified the 2009 contracts when the discrepancies were identified and
told us it intended to do the same for the affected 2010 contracts, resulting in a reduction
in PSC salaries. In addition, compensatory time was not reflected on the staff’s
timesheets or in the post’s official time and attendance records. Proper internal control
over staff time requires that additional hours worked and hours taken as compensatory
time be officially accounted for.

Medical Supplies
The post did not implement the agency’s medical supplies policy. Contrary to policy, the
medical secretary maintained the medical supplies inventory records. Further, the person
responsible for taking the quarterly physical inventory recorded her counts but did not
investigate differences from the inventory records. In addition, the prior country director
did not submit the medical inventory control log annually to the Office of Medical
Services for review, as required. Finally, we found discrepancies in quantities between
our test counts and the medical supplies inventory records. The reliability of medical
inventory information is critical in making correct and cost-effective inventory ordering
decisions and in ensuring that medical supplies in required quantities are on hand to treat
the Volunteers.

Administrative Staff
We found a dedicated and conscientious administrative staff that had functioned
cohesively in support of post operations. Volunteers told us that they had received
effective ongoing assistance from the administrative unit.

Appendix B includes comments from post staff and Volunteers interviewed. Our report
contains 23 recommendations, which, if implemented, should strengthen internal controls
and correct the deficiencies detailed in the accompanying report.




Final Audit Report: Peace Corps/Kenya                                                          ii
                                              TABLE OF CONTENTS

EXECUTIVE SUMMARY....................................................................................................... i

INTRODUCTION ................................................................................................................... 1

AUDIT RESULTS ................................................................................................................... 1

A. IMPREST FUND MANAGEMENT ............................................................................................ 2

B. VOLUNTEER ALLOWANCES .................................................................................................. 2

C. BILLINGS AND COLLECTIONS ............................................................................................... 4

D. PROPERTY MANAGEMENT ................................................................................................... 6

E. VEHICLES MANAGEMENT .................................................................................................... 8

F. PERSONNEL MANAGEMENT AND PSC CONTRACTS ............................................................ 10

G. TRAVEL MANAGEMENT ..................................................................................................... 12

H. MEDICAL SUPPLIES............................................................................................................ 12

QUESTIONED COSTS AND FUNDS TO BE PUT TO BETTER USE ............................. 15

POST STAFFING .................................................................................................................. 16

LIST OF RECOMMENDATIONS ....................................................................................... 17

APPENDIX A: OBJECTIVE, SCOPE, AND METHODOLOGY

APPENDIX B: MANAGEMENT'S RESPONSE TO THE PRELIMINARY REPORT

APPENDIX C: OIG COMMENTS

APPENDIX D: AUDIT COMPLETION AND OIG CONTACT
                                        INTRODUCTION
The Office of Inspector General (OIG) conducted an audit of PC/Kenya January 20 –
February 12, 2010. We previously performed a combined audit and program evaluation
of the post in 2003 (IG-03-02-AE, “Final Report on the Evaluation and Audit of Peace
Corps/Kenya” issued in October 2003).

The Peace Corps commenced its program in Kenya in 1964. Since then, approximately
5,000 Volunteers have served there. In January and February 2008, the Volunteers were
evacuated due to the violent aftermath of the Kenya presidential election. Volunteers
returned to Kenya in June 2008. At the time of our visit, 75 Volunteers were engaged in
three project areas: education, public health, and small enterprise development. The
country director arrived at the post in mid-September 2009, and the administrative officer
arrived in March 2005. Many of our findings occurred prior to the arrival of the country
director.

Our overall objective in auditing overseas posts is to determine whether the financial and
administrative operations were functioning effectively and complied with Peace Corps
policies and federal regulations during the period under audit. Appendix A provides a
full description of our audit objective, scope, and methodology.


                                        AUDIT RESULTS
We found that PC/Kenya’s financial and administrative operations required improvement
and did not fully comply with agency policies and federal regulations.

For example, we found that the post did not:

    •   Perform complete imprest fund verifications.
    •   Conduct appropriate living and settling-in allowance surveys including market
        basket and independent price surveys.
    •   Maintain adequate internal controls and procedures over property inventory.
    •   Perform weekly reviews of vehicle usage logs by all required persons.
    •   Accurately calculate salary costs on PSC contracts.
    •   Record compensatory time on timesheets and the official time and attendance
        records.
    •   Fully implement the agency’s medical supplies policy and keep accurate medical
        supplies inventory records.




Final Audit Report: Peace Corps/Kenya                                                    1
A. IMPREST FUND MANAGEMENT

1. Post management’s oversight of the imprest fund was inadequate.

Overseas Financial Management Handbook (OFMH) section 13.2.1 states: “The Country
Director, as the Post Manager, has responsibility for imprest management because of the
use of cash and the consequent potential for internal control problems.”

The policy enumerates specific responsibilities of the country director, which include
“ensuring that an unannounced, monthly verification of the imprest fund is conducted …
It should be conducted quarterly by the country director, and in the remaining months it
may be delegated to the administrative officer.”

Further, OFMH section 13.24.1 states: “The verification includes a complete
reconciliation, with a cash count and verification of supporting documents for all
balances on the 365 (line by line) and completion of the checklist for verifying officers.”

The cashier informed us that imprest fund verifications of the country director and
administrative officer did not include a complete review of reconciling documents and
their proper recording on the cash reconciliation statement. Also, the prior country
director did not perform an imprest fund verification in the first quarter of fiscal year
2009; however, verifications since then have been timely and accordingly, no
recommendation is being made.

Managerial oversight of the imprest fund is an essential internal control over the post’s
most liquid asset and is required to effectively safeguard the fund and detect and prevent
inadvertent errors and fraud.


                 We recommend:

                 A.1.1 That the country director and the administrative
                       officer perform complete imprest fund verifications
                       that not only include a cash count but also a review
                       of supporting documents for all balances on the
                       cash reconciliation statement.


B. VOLUNTEER ALLOWANCES

1. The post’s 2009 market basket survey was ineffective in corroborating the Volunteer
living allowance survey results.

PCM section 221.5.7.2 states: “To verify living allowance survey submissions, a market
basket survey shall be conducted by staff …The market basket survey is to be used as a


Final Audit Report: Peace Corps/Kenya                                                         2
guide to validate the cost data on the living allowance survey submissions.”

Further, PCM section 221.5.7.3 states: “Increases or decreases to the base living
allowance must be based on the findings of the Volunteer living allowance survey, as
supported by the market basket survey.”

The post performed a Volunteer living allowance survey in 2009. The Volunteer
responses, totaling a strong 83.6% of all Volunteers, were compiled and analyzed.
However, the post’s market basket survey (MBS) was ineffective in validating the
Volunteer survey results. For example, cost data was not obtained in the MBS for the
category “clothing.” Further, for some categories, such as “reading” and “domestic
help,” the post’s compilation contained wide cost variations by location without
explanation or evidence of follow-up. Also, the MBS categories “food” and “reading”
were completed for all locations surveyed, but other categories were completed for only
some locations. In addition, the post used an MBS form with some different categories,
such as “domestic help,” than the Volunteer survey. Using the same categories would
facilitate the validation of Volunteer survey results.

In addition, the post did not perform a living allowance market basket survey in 2008.
These are required to be performed annually in conjunction with the Volunteer living
allowance surveys.

Properly conducted market basket surveys, which provide an independent verification of
costs, are an essential element in a post’s review of the adequacy of the Volunteer living
allowance.


                 We recommend:

                 B.1.1 That, to facilitate validating the cost data from the
                       Volunteer living allowance survey, the post conduct
                       a market basket survey with the same cost
                       categories as the Volunteer survey.

                 B.1.2 That the post use the results of the market basket
                       survey in evaluating the results of the Volunteer
                       living allowance survey and determining if the
                       allowance is adequate to support Volunteer living
                       needs.


2. The post did not analyze the settling-in surveys nor perform independent price
surveys.

At the conclusion of pre-service training, newly sworn-in Volunteers are given a settling-
in allowance to provide for their needs when arriving at their sites. PCM section 221.3.1



Final Audit Report: Peace Corps/Kenya                                                        3
states that the allowance is for the purchase of “necessary housing supplies and
equipment.”

To verify that the allowance is adequate, PCM section 221.4.2 requires that the post
conduct Volunteer settling-in surveys and related independent price surveys.

The post did not complete its review and evaluation of the Volunteer settling-in surveys.
The post distributed the settling-in survey forms to the new Volunteers and compiled the
response data on a spreadsheet. However, the post did not analyze the results and
conclude as to the adequacy of the allowance. In addition, the post did not perform
related independent price surveys in 2008 and 2009 to confirm the results of the
Volunteer survey.

Volunteers rely upon the post to provide them with adequate allowances, which are
mandated by Section 2504 of the Peace Corps Act. Properly conducted settling-in
allowance surveys help ensure that the allowance is adequate.


                 We recommend:

                 B.2.1 That the post analyze the results of its Volunteer
                       settling-in survey and conclude as to the
                       allowance’s adequacy.

                 B.2.2 That the post conduct an independent price survey
                       in conjunction with the Volunteer settling-in
                       allowance survey to confirm the results of the
                       Volunteer survey.


C. BILLINGS AND COLLECTIONS

1. The post did not always bill promptly for personal phone usage and have the billing
officer handle follow-up of billings, and had not set a minimum cost-effective billing
amount.

PCM section 777.8.0 states: “Debts are incurred through the non-official use of
Government-owned transportation, communication facilities or living accommodations,
loss of funds, loss or damage to government-owned equipment, property, etc.” PCM
section 777.16.4 states: “An employee indebtedness should be settled promptly.” This
requires that the post’s billing office maintain an effective and efficient processing and
control system that bills the staff for amounts owed the post in a timely manner.

PCM section 777.3.2 specifies the responsibilities of the billing office. These include:




Final Audit Report: Peace Corps/Kenya                                                        4
“Preparation, issuance and control of billings; advises debtors where payments or
remittances should be made; maintains an aggressive follow-up program for outstanding
bills until collection or other means of settlement are made.”

By comparison, the collections office, according to PCM section 777.3.4, “is responsible
for the control and deposit of remittances and collections.”

In addition, OFMH section 7.2.1, number 4, states: “Ensure that the Billing File has
‘closure’ documents (e.g., General Receipt, Void justification/re-entry, etc) for all BOCs
that are not outstanding.”

Further, OFMH section 7.1.1 states that “ … agency policy authorizes CDs to establish
written, post-specific policy, applicable to all staff (including FP, FSN, and PSCs) which
sets a threshold for billing based on a consideration of the costs incurred in the billing and
collection process - i.e., is it cost effective to bill for an amount of less than ‘x’."

We noted the following departures from billing and collection policy and procedure:

Billings for personal phone usage were sometimes issued and collected late in 2007-
2008. We noted bills of collection that were issued in 2008 up to nine months after the
date that the phone bill was received at the post. The administrative officer and the
billing officer told us that the tardiness in billing was due to certain staff not promptly
reviewing the phone bills to identify personal calls. The issue is not a current problem,
and, accordingly, no recommendation is being made.

Further, the collections officer (cashier) oversaw the status and follow-up of BOCs
issued, rather than the billing officer, who is best placed and most knowledgeable to
perform this function.

In addition, we noted that the billing files were maintained by different staff. For
example, the motor pool coordinator maintained the billing files for U.S. direct hire
personal usage of post vehicles. The general services assistant maintained the billing
files for auctions of vehicles and furniture and equipment. And, the Volunteer records
clerk maintained the files for billings to Volunteers. Centralizing BOC files in the billing
office would strengthen billing officer control.

Finally, the post had not determined an amount under which it would not be cost-
effective to bill for phone charges. We noted monthly billings in amounts as low as the
Kenya shilling equivalent of $1 or less. During the audit, the country director set a
monthly minimum of 750 Kenya shillings ($10 at the exchange rate of 75 Kenya shillings
to the U.S. dollar) to bill for personal phone usage.




Final Audit Report: Peace Corps/Kenya                                                         5
                 We recommend:

                 C.1.1 That the billing officer centralize the billing files in
                       the billing office to strengthen control.


D. PROPERTY MANAGEMENT

1. The post’s internal controls and procedures over property inventory were deficient.

PCM section 511.5.1 states: “Before beginning inventory, the Property Officer should
check the property management records against written documentation of
property/equipment changes to ensure that all changes have been entered in the property
management database.”

Further, PCM section 511.6.1 requires “the Administrative Officer reconcile the
inventory against receiving reports and requisition forms at least once a quarter.”

In addition, “Standards for Internal Control in the Federal Government” issued by the
Government Accountability Office (hereafter, GAO Standards) states: “An agency must
establish physical control to secure and safeguard vulnerable assets ... Such assets should
be periodically counted and compared to control records.”

The GAO Standards also require the separation of incompatible duties. It states: “Key
duties and responsibilities need to be divided and segregated among different people to
reduce the risk of error or fraud.” The GAO Standards assert that “… control activities
help to ensure that all transactions are completely and accurately recorded.”

The post’s internal controls and procedures over property inventory were inadequate, as
follows:

•   The IT specialist maintained the IT inventory listing and also performed the physical
    inventory verification, violating the internal control requirement to segregate
    incompatible responsibilities.

•   The September 2008 property inventory listing was not updated for changes during
    the year, violating the requirement for the timely recording of transactions and events.
    A new listing was prepared in September 2009. However, the two listings were not
    compared, unexplained differences were not investigated, and no physical inventory
    verification was conducted.

    The general services assistant, who has responsibility for inventory control, told us
    that he would use the September 2009 inventory listing as the basis for establishing a
    property inventory database, that he would update it on an ongoing basis for changes,
    and that he would verify the accuracy of this database in connection with the 2010



Final Audit Report: Peace Corps/Kenya                                                       6
    physical inventory. The administrative officer told us that she would monitor the
    work to ensure that it is done appropriately and timely.

•   The property control officer did not reconcile the property inventory records with
    written documentation of changes before beginning inventory.

•   The administrative officer did not reconcile the inventory against receiving reports
    and requisition forms at least once a quarter.

•   The listing of property requested by and sent to headquarters in November 2009 was
    not updated from the November 2008 submission. Accordingly, it showed numerous
    discrepancies, including the locations of property. Also, items were inconsistently
    listed. For example, some IT converters and transformers were included on the
    listing, while others were excluded.

•   We found property with two tags, of which one was the Peace Corps tag: the safes in
    the offices of the cashier, finance assistant, and Volunteer records clerk. We also
    found property with no Peace Corps tags: Sony Trinitron Vega televisions in the IT
    specialist’s office and the Volunteer resource center, a lawn mower on the office
    compound, and two refrigerators in the kitchen.

Adequate and properly implemented internal controls and procedures are essential for
effective accountability and oversight over post property. Control procedures such as
delineating and segregating staff responsibilities, maintaining an accurate and complete
property inventory database, updating it for changes on an ongoing basis, performing
periodic reconciliations during the year, and conducting physical inventory verifications
are important steps in protecting the property from waste, fraud, and abuse.

The aforementioned deficiencies made the post’s property vulnerable to loss. Without
appropriate controls in place, and without accurate and reliable inventory data, property
could inadvertently or advertently go missing and the condition not identified. The
resulting property loss would have an adverse financial impact on the agency.


                 We recommend:

                 D.1.1 That the post establish and maintain an accurate
                       property inventory database and regularly update it
                       for changes.

                 D.1.2 That the property control officer reconcile the
                       property inventory database with written
                       documentation of changes to ensure that all changes
                       have been recorded before the physical inventory is
                       conducted.



Final Audit Report: Peace Corps/Kenya                                                       7
                 D.1.3 That the administrative officer reconcile the
                       inventory against receiving reports and requisition
                       forms at least once a quarter.

                 D.1.4 That one staff member maintain the property
                       inventory database and another staff member
                       conduct the physical inventory.

                 D.1.5 That the post review its property and eliminate
                       duplicate tags and affix tags to property needing
                       them.

                 D.1.6 That the post provide current and accurate
                       information on its annual inventory submission to
                       headquarters.


E. VEHICLES MANAGEMENT

1. All required personnel did not review, initial, and date the vehicle usage logs
weekly.

PCM section 527.5.4 requires that the administrative officer, the staff member
responsible for initiating vehicle repairs or maintaining the vehicle records, and the staff
member responsible for billing authorized non-official vehicle use review, initial, and
date the vehicle usage logs weekly.

We found that while the administrative officer was reviewing, initialing, and dating the
vehicle usage logs on a weekly basis, the motor pool coordinator and the billing officer
were not.

The motor pool coordinator, who was responsible for repairs and maintenance, told us
that, although he did not initial and date the logs, he reviewed them and showed us his
analyses using data extracted from the logs.

Review and oversight of the post’s vehicle usage logs are important internal control
procedures in ensuring that the post’s vehicles are being used appropriately.


                 We recommend:

                 E.1.1 That the required staff members review, initial, and
                       date the vehicle usage logs weekly.




Final Audit Report: Peace Corps/Kenya                                                          8
2. The post has maintained a Peace Corps vehicle in excess of the established ceiling
since 2007, pending proper documentation so that the vehicle can be sold.

PCM section 527.5.6 states: “The Agency's ‘Vehicle Fleet Management Guide’ sets out
in-depth the procedures and requirements for use of the Agency's vehicle fleet.” The
Guide states: “Please dispose of vehicle as soon as possible. Proceeds from the sale of
vehicles are a significant resource to the Agency.”

Further, PCM section 527.5.1.1 states: “A post may not maintain a vehicle fleet in excess
of the established ceiling …” with certain exceptions including “for a temporary period
necessary to dispose of an excess or replaced vehicle.”

Since 2007, an unused 2002 Toyota Land Cruiser owned by the Peace Corps has been
sitting idle at the post awaiting registration documents so that it can be sold. This
situation has resulted in the actual number of vehicles at the post being greater than the
established vehicle ceiling as indicated on the last “vehicle status report” submitted to
headquarters by the post.

The vehicle was driven from PC/Uganda to PC/Kenya in 2006 by the regional safety and
security coordinator upon his relocation to Kenya. The documents to register the vehicle
in Kenya, according to the post, either could not be located or were not prepared. Upon
the vehicle’s arrival in Kenya, U.S. embassy plates were placed on the vehicle so that it
could be driven in the country. However, notwithstanding the lack of documents, the
post auctioned the vehicle in November 2007 for 1,731,000 Kenya shillings (about
$23,000). The buyer was unable to register the vehicle because of the missing
documents, and accordingly the post returned the funds. In January 2010, the post was
notified by the U.S. embassy’s general services officer that the required registration
documents had been received.

As a result of the above situation, agency resources that could have been used for other
purposes were tied up for two years. Moreover, the vehicle’s market value may well
have diminished during that period, which may result in lower proceeds to the agency
when it is sold.


                 We recommend:

                 E.2.1 That the post sell the excess and unused Peace
                       Corps vehicle, a 2002 Toyota Land Cruiser,
                       following agency procedure.




Final Audit Report: Peace Corps/Kenya                                                        9
F. PERSONNEL MANAGEMENT AND PSC CONTRACTS

1. The post’s 2010 and 2009 PSC contracts were miscalculated.

The GAO Standards require the “accurate and timely recording of transactions and
events.”

PSCs’ 2010 contracts were miscalculated. The discrepancy, which was discovered
during our review of the contracts’ numerical accuracy, resulted from the inclusion of
non-salary costs in the calculation. The administrative officer immediately recalculated
the contract amounts. The result was a downward adjustment in total contract costs of
about 60,000 Kenya shillings (about $800). The administrative officer told us that the
post intended to correct the contracts.

In addition, the 2009 contracts were miscalculated for 14 PSCs. We were told that a
computer program used to determine total compensation costs erroneously included the
PSCs’ daily wage rate to arrive at the total. The amount paid to staff was unaffected.
The post was unable to provide us with the amount of the adjustment. The problem was
identified in early calendar 2009 by headquarters, and the contracts were corrected.

Accuracy in the calculation of PSC pay and contract costs, and effective management
oversight and monitoring, are essential to ensure that PSCs are correctly paid and that
salary costs are properly determined.


                 We recommend:

                 F.1.1 That the post correct the 2010 PSC contracts for the
                       miscalculation.

                 F.1.2 That the administrative officer establish internal
                       control procedures to ensure that PSC compensation
                       is accurately calculated and ensure that the
                       calculations are reviewed before they are finalized
                       on the actual contracts.


2. The post did not reflect compensatory time in its time and attendance records.

PCM sections 742.6.1 and 630.4.6 provide guidance in proper time and attendance
procedure. Further, the GAO Standards require “accurate and timely recording of
transactions and events” and state that “control activities help to ensure that all
transactions are completely and accurately recorded.”




Final Audit Report: Peace Corps/Kenya                                                     10
The post provided compensatory time to staff for extra hours worked. However, the post
maintained the compensatory time “off the books,” using principally verbal or e-mail
communication between the staff members and their supervisors. Timesheets did not
reflect the extra hours worked that earned compensatory time. Further, compensatory
time taken was shown on timesheets as regular work hours rather than as leave.
Similarly, the post’s official time and attendance records, maintained on Form PC-57, did
not reflect compensatory time.

Proper internal controls over time and attendance require a complete accounting for all
time including compensatory time. Appropriate control procedures require that hours
worked that earned compensatory time be recorded on timesheets and reviewed by their
supervisors, and that leave taken relating to compensatory time earned be reflected on the
timesheets and on the post’s official time and attendance records.


                 We recommend:

                 F.2.1 That the staff record compensatory time on
                       timesheets and that the timekeeper reflect
                       compensatory time in the official time and
                       attendance records.

                 F.2.2 That the administrative officer develop written
                       guidance with regard to recording and taking
                       compensatory time, and disseminate it to the staff.


3. Staff reporting to the country director have not been evaluated.

OFMH section 3.1 requires that the country director ensure that staff is evaluated.

The country director has not completed performance appraisals for staff reporting to him.
The country director, who arrived in mid-September 2009, told us that he intended to
conduct the evaluations in the near future.

Evaluations are important in that they provide feedback to the staff member and create
the opportunity for a dialogue with the staff member regarding past performance and
career goals.


                 We recommend:

                 F.3.1 That the country director complete 2009
                       performance appraisals for staff reporting to him.




Final Audit Report: Peace Corps/Kenya                                                    11
G. TRAVEL MANAGEMENT

1. The staff travel per diem requires review.

OFMH section 57.5 says that country directors “should establish rates…which reflect
reasonable costs of travel.” The policy further states: “Amounts authorized should be
reviewed annually and adjustment made (increase or decrease) based on current prices.”

Some staff during interviews told us that the staff travel per diem for lodging and for
meals and incidentals was inadequate given cost increases in the country. The per diem
for lodging has remained constant for several years at 2,900 Kenya shillings (about $39).
The per diem for meals and incidentals was reduced from 2,000 (about $27) to 1,500
Kenya shillings (about $20) in 2006 and, except for travel to the Kenya coast, was
reduced to 1,200 Kenya shillings (about $16) in 2008.

The country director told us that he had requested that traveling staff provide him with
lodging rates and hotel and other restaurant prices so that he can evaluate the per diem’s
adequacy and take action as needed.


                 We recommend:

                 G.1.1 That the country director review the staff travel per
                       diem to evaluate its adequacy, and adjust the per
                       diem as needed.


H. MEDICAL SUPPLIES

1. The post did not fully implement the agency’s medical supplies inventory policy.

PCM section 734 specifies the post’s requirements relating to medical supplies inventory.
The policy was revised in November 2008 to strengthen internal controls and procedures
over medical supplies.

PCM section 734.3.5 delineates overall control objectives and responsible parties. It
states: “The CD and PCMO share the responsibility to maintain effective control over
medical supplies …. Assurance that effective controls are in place is achieved through
maintaining appropriate segregation of duties, accurate record keeping, secure storage,
and periodic inventories.”

The post did not fully implement PCM section 734 as follows:

•   Contrary to policy, the medical secretary, rather than the medical supplies inventory
    control (MSIC) clerk, maintained the inventory records for all medical supplies.




Final Audit Report: Peace Corps/Kenya                                                     12
    Agency policy requires that the MSIC clerk “must be a person from outside the
    medical unit staff.” (PCM section 734.3.4 and 734.3.5.1)

•   The person responsible for taking the quarterly physical inventory recorded her
    counts in the medical records. However, the MSIC clerk did not reconcile her counts
    with the recorded quantities and investigate differences (PCM 734.3.5.3(b)). Our test
    counts disclosed discrepancies a complete reconciliation would have identified.

•   The prior country director did not annually sign the medical inventory control log or
    submit it to OMS as of March 31 and due by April 15. The log enumerates the
    inventories of controlled substances and specially designated medical supplies and is
    an important tool in OMS’ review and oversight activities (PCM section 734.3.5.3c)).

Proper segregation of responsibilities, along with accurate and complete inventory
records, are essential internal controls over medical supplies. Effective internal controls
and procedures are needed in order to prevent theft, loss, or abuse of medical supplies.


                 We recommend:

                 H.1.1 That the post implement the agency’s policy on
                       medical supplies, PCM section 734, to correct the
                       deficiencies noted.


2. Discrepancies existed between the medical supplies inventory and the related
records.

PCM section 734.3.5 states: “Assurance that effective controls are in place is achieved
through…accurate record keeping ….

We noted discrepancies between the medical supplies on hand and the related records, as
follows:

•   The PCMO’s listing of controlled substances showed quantities for three drugs that
    had been destroyed.

•   Our test counts showed quantity differences between what was on the records versus
    the actual inventory on hand. We determined the discrepancies were due to drugs
    dispensed to Volunteers that had not been posted to the listing since the last quarterly
    inventory.

Accuracy in the recording of medical supplies and timeliness in the updating of the
inventory records are essential in detecting and preventing waste, fraud, and abuse.
Further, the reliability of medical inventory information is critical in making correct and
cost-effective inventory ordering decisions, and ensuring that the medical unit has the


Final Audit Report: Peace Corps/Kenya                                                     13
appropriate items and quantities of medical supplies on hand to effectively treat
Volunteers.


                 We recommend:

                 H.2.1 That the posts conduct a complete physical
                       inventory of medical supplies in accordance with
                       PCM section 734 and update the inventory records
                       accordingly.

                 H.2.2 That the post record medical supplies received and
                       dispensed to Volunteers on an ongoing basis rather
                       than at the time of the quarterly physical inventory
                       verification.




Final Audit Report: Peace Corps/Kenya                                               14
                        QUESTIONED COSTS AND
                     FUNDS TO BE PUT TO BETTER USE

We identified certain questioned costs and funds to be put to better use during the course
of the audit. They are discussed in the accompanying audit report and enumerated below
along with the recommendation number in the report. (Amounts are in U.S. dollars or
U.S. dollar equivalents of Kenya shillings at the rate of $1 equals 75 Kenya shillings.)

                                        Questioned Costs

Recommendation
                                              Description                         Amount
    number
                       Miscalculation of 2010 PSC contracts.                     $800.00
       F.1.1




                               Funds to be put to Better Use

Recommendation
                                              Description                        Amount
    number
                       Peace Corps vehicle sitting idle and awaiting sale for
       E.2.1           over two years due to the absence of registration        $23,000.00
                       documents.




Final Audit Report: Peace Corps/Kenya                                                   15
                                        POST STAFFING

At the time of our visit, the post had thirty staff positions: two U.S. direct hires, five
foreign service nationals, and twenty-three personal services contractors (including one
working part-time). In addition, the agency’s regional safety and security officer had an
office at the post.

We interviewed ten staff members, including the two U.S. direct hire employees. All
staff interviewed told us that they very much enjoyed working at the Peace Corps. They
stated that, in particular, they enjoyed interacting with and supporting the Volunteers.

Volunteers told us that they appreciated the interest shown by the staff in their success
and well-being. Volunteers also stated that they had received effective ongoing support
from the administrative unit.


                                          PC/Kenya Positions
                                        Position                     Status
             Country Director                                        USDH
             Administrative Officer                                  USDH
             Safety and Security Coordinator                          PSC
             APCD/Education                                           FSN
             APCD/Public Health                                       FSN
             APCD/Small Enterprise Development                        FSN
             HIV/AIDS Coordinator                                     PSC
             Training Coordinator                                     PSC
             Language and Cross-Cultural Coordinator                  PSC
             Training Assistant/Logistician                           PSC
             Finance Assistant                                        FSN
             Cashier                                                  FSN
             IT Specialist                                            PSC
             General Services Assistant                               PSC
             Volunteer Records Clerk                                  PSC
             Voucher Examiner                                         PSC
             Mail/Key Operator                                        PSC
             Receptionist                                             PSC
             PCMO                                                     PSC
             PCMO (part-time)                                         PSC
             Medical Secretary                                        PSC
             Motor Pool Coordinator                                   PSC
             Drivers (6)                                              PSC
             Janitors (2)                                             PSC



Final Audit Report: Peace Corps/Kenya                                                    16
                         LIST OF RECOMMENDATIONS

We recommend:

A.1.1 That the country director and the administrative officer perform complete imprest
      fund verifications that not only include a cash count but also a review of
      supporting documents for all balances on the cash reconciliation statement.

B.1.1 That, to facilitate validating the cost data from the Volunteer living allowance
      survey, the post conduct a market basket survey with the same cost categories as
      the Volunteer survey.

B.1.2 That the post use the results of the market basket survey in evaluating the results
      of the Volunteer living allowance survey and determining if the allowance is
      adequate to support Volunteer living needs.

B.2.1 That the post analyze the results of its Volunteer settling-in survey and conclude
      as to the allowance’s adequacy.

B.2.2 That the post conduct an independent price survey in conjunction with the
      Volunteer settling-in allowance survey to confirm the results of the Volunteer
      survey.

C.1.1 That the billing officer centralize the billing files in the billing office to
      strengthen control.

D.1.1 That the post establish and maintain an accurate property inventory database and
      regularly update it for changes.

D.1.2 That the property control officer reconcile the property inventory database with
      written documentation of changes to ensure that all changes are recorded before
      the physical inventory is conducted.

D.1.3 That the administrative officer reconcile the inventory against receiving reports
      and requisition forms at least once a quarter.

D.1.4 That one staff member maintain the property inventory database and another staff
      member conduct the physical inventory.

D.1.5 That the post review its property and eliminate duplicate tags and affix tags to
      property needing them.

D.1.6 That the post provide current and accurate information on its annual inventory
      submission to headquarters.


Final Audit Report: Peace Corps/Kenya                                                     17
E.1.1 That the required staff members review, initial, and date the vehicle usage logs
      weekly.

E.2.1 That the post sell the excess and unused Peace Corps vehicle, a 2002 Toyota
      Land Cruiser, following agency procedure.

F.1.1 That the post correct the 2010 PSC contracts for the miscalculation.

F.1.2 That the administrative officer establish internal control procedures to ensure that
      PSC compensation is accurately calculated and ensure that the calculations are
      reviewed before they are finalized on the actual contracts.

F.2.1 That the staff record compensatory time on timesheets and that the timekeeper
      reflect compensatory time in the official time and attendance records.

F.2.2 That the administrative officer develop written guidance with regard to recording
      and taking compensatory time, and disseminate it to staff.

F.3.1 That the country director complete 2009 performance appraisals for staff
      reporting to him.

G.1.1 That the country director review the staff travel per diem to evaluate its
      adequacy, and adjust the per diem as needed.

H.1.1 That the post implement the agency’s policy on medical supplies, PCM section
      734, to correct the deficiencies noted.

H.2.1 That the post conduct a complete physical inventory of medical supplies in
      accordance with PCM section 734 and update the inventory records accordingly.

H.2.2 That the post record medical supplies received and dispensed to Volunteers on an
      ongoing basis rather than at the time of the quarterly physical inventory
      verification.




Final Audit Report: Peace Corps/Kenya                                                    18
APPENDIX A

            OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective in auditing overseas posts is to determine whether the financial and
administrative operations are functioning effectively and comply with Peace Corps
policies and federal regulations. Our audit conclusions are based on information from
three sources: (1) document and data analysis, (2) interviews, and (3) direct observation.
Our audits are conducted in accordance with the government auditing standards
prescribed by the Comptroller General of the United States.

The audit of Peace Corps/Kenya covered fiscal years 2008, 2009, and 2010 through
December 31, 2009. While at the post, we interviewed key staff including the country
director, the administrative officer, the safety and security coordinator, staff responsible
for administrative support, and the full-time medical officer. We also interviewed
Volunteers to obtain their views on the effectiveness of the post’s administrative and
financial systems in supporting them. As part of the audit process, we briefed the country
director and administrative officer. At headquarters, we conducted a general briefing for
regional staff.

We relied on computer-processed data from the post’s accounting system. While we did
not test the system’s controls, we believe the information generated by the system and
used by us was sufficiently reliable for our audit objective.

Our audit criteria were derived from the following sources: federal regulations, the Peace
Corps manual, Overseas Financial Management Handbook, and current Peace Corps
policies and initiatives.
APPENDIX B


                       MANAGEMENT’S RESPONSE TO
                        THE PRELIMINARY REPORT




DATE: August 16, 2010

TO: Kathy Buller, IG

FROM: Lynn Foden, Acting RD/AF

CC: Stacey Rhodes, Chief of Staff; Esther Benjamin, AD/OGO; Elisa Montoya, Acting Chief
Compliance Officer; Nicola Cullen, Policy & Program Analyst; Larry Blake, AF; Steve
Wisecarver, CD Kenya; Jolie Carey, CDO

SUBJECT: Africa Region’s Response to the OIG Preliminary Report on the financial audit of
Peace Corps/Kenya

The following responses reflect the consensus of the Africa Region. Of the twenty-three OIG
recommendations, Region does not concur with one, C.1.1. Accompanying this report please
find supporting documentation regarding Region’s responses.
APPENDIX B
Recommendation A.1.1 That the country director and the administrative officer perform
complete imprest fund verifications that not only include a cash count but also a review
of supporting documents for all balances on the cash reconciliation statement.
Concur: The Country Director (CD) and Administrative Officer (AO) perform imprest fund
verifications that include a cash count and a review of supporting documents for all balances on
the cash reconciliation statement. The cashier monitor from RFMC/Paris, performed an audit of
Post’s cashiering operations in July 2009, noting that, “the overall operations are well managed
and the internal controls system is functioning properly. No significant deficiencies were
identified.”
There has not been a discrepancy in Post’s imprest fund for the past seven years. The CD and
AO reconcile outstanding advances/interim receipts as part of the cash count. Post reviews
vouchers before they are closed which are then locked into 4Post. The cashier cannot alter or
change these reviewed and closed vouchers. Re-reviewing closed vouchers as part of the imprest
fund verification is inefficient to Post’s current procedures and practices which has maintained
accurate accounts for the last seven years.

Recommendation B.1.1 That, to facilitate validating the cost data from the Volunteer
living allowance survey, the post conduct a market basket survey with the same cost
categories as the Volunteer survey.
Concur: The post will conduct market basket surveys using the same cost categories as the
Volunteer survey.

Recommendation B.1.2 That the post use the results of the market basket survey in
evaluating the results of the Volunteer living allowance survey and determine if the
allowance is adequate to support Volunteer living needs.
Concur. Post uses the results of market basket surveys to analyze the results of the living
Allowance surveys. As a result, the Volunteer living allowance was increased from 13,269
Kenyan Shillings to 16,000 Kenyan Shillings in FY 2009.

Recommendation B.2.1 That the post analyze the results of its Volunteer settling-in
survey and conclude as to the allowance’s adequacy.
Concur. Post will analyze the results of the next SIA survey (scheduled for October 2010).

Recommendation B.2.2 That the post conduct and independent price survey in
conjunction with the Volunteer settling-in allowance survey to confirm the results of the
Volunteer Survey.
Concur: Post will do this with the next SIA survey (scheduled for October 2010).
APPENDIX B
Recommendation C.1.1 That the billing officer centralize the billing files in the billing
office to strengthen control.
Do not Concur: Manual Section (MS) 777 does not require centralized billing. Peace Corps
Kenya’s current system of maintaining billing files by functional offices is in compliance and
most effective in meeting Post’s needs.

Recommendation: D.1.1 That the post establish and maintain an accurate property
inventory database and regularly update it for changes.
Concur: We have updated and are maintaining an accurate property inventory database.

Recommendation D.1.2 That the property control officer reconcile the property inventory
database with written documentation of changes to ensure that all changes are recorded
before the physical inventory is conducted.
Concur: These duties were separated in 2009. The GSA maintains the master inventory list and
the ITS and Cashier perform the physical inventory. The auditor confirmed the ITS and Cashier
conduct separate physical inventory verifications.

Recommendation D.1.3 That the administrative officer reconcile the inventory against
receiving reports and requisition forms at least once a quarter.
Concur: The AO will review inventory against receiving reports and requisition forms as
necessary.

Recommendation D.1.4 That one staff member maintain the property inventory database
and another staff member conduct the physical inventory.
Concur: These duties were already separated in 2009. The GSA holds the master inventory list
and the cashier performs the physical inventory tracking. The AO conducted the physical
inventory of all IT equipment and vehicles, which was due in March 2010.

Recommendation D.1.5 That the post review its property and eliminate duplicate tags
and affix tags to property needing them.
Concur: Peace Corps Kenya has placed tags on the five items listed in the audit report that were
previously missing tags. Items with more than one tag demonstrate the property’s origin.

Recommendation D.1.6 That the post provide current and accurate information on its
annual inventory submission to headquarters.
Concur: As of August 2010, Post updated its inventory which is now accurate. As a result, Post
anticipates its annual submission will also be accurate.
APPENDIX B
Recommendation E.1.1 That the required staff members review, initial, and date the
vehicle usage logs weekly.
Concur: Per MS 527 5.4.2 The overseas AO reviews, initializes, and dates the Weekly Vehicle
Usage Logs weekly and reports questions to the Country Director.
Per MS 527 5.4.3 The Motorpool Supervisor is responsible for initiating vehicle repairs and
maintaining the vehicle maintenance records. He reviews the Weekly Vehicle Usage Logs. This
staff member now initializes and dates the Weekly Vehicle Usage Logs.
Per MS 527 5.4.4 Since March 2010, the Financial Assistant reviews, initializes and dates the
Weekly Vehicle Usage Logs on a weekly basis.

Recommendation E.2.1 That the post sell the excess Peace Corps vehicle, a 2002 Toyota
Land Cruiser, following agency procedure.
Concur: Peace Corps Kenya has a strong record of cost effective and timely vehicle disposal.
Post has sold eleven (11) vehicles in the past five years. This has resulted in the return of
15,570,049 Kenyan Shillings (approximately $195,000 USD) to the agency.
The former PCSSO vehicle was brought in from Uganda. Post had appropriate authorizations to
sell this vehicle in 2007 with the caveat that the buyer would complete the registration process.
Unfortunately, after extensive back and forth, the prospective buyer did not complete the
purchase. The American Embassy GSO in Kenya has needed four years to sort the paperwork
and register the vehicle in Kenya in order for Peace Corps Kenya to sell this item according to
agency regulations.

Recommendation F.1.1 That the post correct the 2010 PSC contracts for the
miscalculation.
Concur: Post corrected the contracts in question in March 2010.

Recommendation F.1.2 That the administrative officer establish internal control
procedures to ensure that PSC compensation is accurately calculated and ensure that the
calculations are reviewed before they are finalized on the actual contracts.
Concur: The AO and FA conduct several reviews of contracts to verify calculations. GAO
standards acknowledge that internal control provides reasonable, not absolute, assurance.

Recommendation F.2.1 That the staff record compensatory time on timesheets and that
the timekeeper reflect compensatory time in the official time and attendance records.
Concur: This will be implemented by May 2010.

Recommendation F.2.2 That the administrative officer develop written guidance with
regard to recording and taking compensatory time, and disseminate it to staff.
Concur: The AO will send out revised guidance by May 2010.
APPENDIX B
Recommendation F.3.1 That the country director complete 2009 performance appraisals
for staff reporting to him.
Concur: The CD has completed two of the outstanding reviews. The remaining will be
completed by September 30th, 2010.

Recommendation: G.1.1 That the country director review the staff travel per diem to
evaluate its adequacy, and adjust the per diem as needed.
Concur: The CD reviews staff travel per diem and concluded it is appropriate. Staff were
surveyed in 2009. The former CD’s memo regarding approved in-country lodging rates shows an
increased to 3,500 Kshs. The CD and AO support staff to submit documentation in for
increased per diem (e.g. menus, receipts, bills, etc.) This has yet to happen. In personal travels
up-country, the current CD found per diem rates in line with current costs. Lodging rates are
periodically reviewed and adjusted. There has been discussion to possibly increase lodging rates
in specific locations such as Mombassa and Kisumu.

Recommendation H.1.1 That the post implement the agency’s policy on medical
supplies, PCM section 734, to correct the deficiencies noted.
Concur. Post will re-review roles and responsibilities with all six (6) staff involved in tracking
medical inventory by end July 2010.

Recommendation H.2.1 That the post conduct a complete physical inventory of medical
supplies in accordance with PCM section 734 and update the inventory records
accordingly.
Concur: A complete physical inventory of medical supplies was conducted by Post in March
2010.

Recommendation H.2.2 That the post record medical supplies received and dispensed to
Volunteers on an ongoing basis rather than at the time of the quarterly physical
inventory verification.
Concur: Peace Corps Kenya records medical supplies received and dispensed to volunteers on a
weekly basis. This has occurred since March 2010.
APPENDIX C


                               OIG COMMENTS

Management concurred with 22 recommendations and did not concur with one
recommendation. We closed 13 recommendations: A.1.1, D.1.1, D.1.2, D.1.4, D.1.5,
E.1.1, F.1.1 – F.2.2, H.1.1 – H.2.2. We left open 10 recommendations: B.1.1, B.1.2,
B.2.1, B.2.2, C.1.1, D.1.3, D.1.6, E.2.1, F.3.1, G.1.1 These recommendations remain
open pending confirmation from the chief compliance officer that the following has been
received:

   •   For recommendations B.1.1 and B.1.2, a copy of a properly performed market
       basket survey and documentation showing that the results were compiled and
       used in evaluating the Volunteer living allowance survey. (See discussion in first
       paragraph below.)

   •   For recommendations B.2.1 and B.2.2, a copy of an independent price survey in
       conjunction with the Volunteer settling-in survey and documentation showing that
       the results of the settling-in survey were analyzed and that a conclusion was made
       as to the allowance’s adequacy.

   •   For recommendation C.1.1, confirmation that the post has centralized its bills of
       collection files in the billing office.

   •   For recommendation D.1.3, documentation showing that the administrative
       officer has performed the required inventory reconciliation at least once a quarter.
       (See discussion in second paragraph below.)

   •   For recommendation D.1.6, a copy of the post’s annual inventory submission to
       headquarters.

   •   For recommendation E.2.1, documentation evidencing that the post has sold the
       excess vehicle, a 2002 Toyota Land cruiser, that since 2007 was sitting idle and
       awaiting registration documents to be sold.

   •   For recommendation F.3.1, documentation showing that the country director has
       completed the 2009 appraisals for staff reporting to him.

   •   For recommendation G.1.1, documentation evidencing a review by the country
       director of staff travel per diem for lodging and MIE, by region as needed, in
       order to evaluate the per diem’s adequacy.

While management concurred with recommendation B.1.2, its accompanying statement
inferred that the post’s 2009 market basket survey performed in conjunction with the
2009 living allowance survey, appropriately supported the Volunteer living allowance
APPENDIX C
increase. We found the market basket survey to be inadequate, for the numerous reasons
detailed in our finding, and it did not validate the Volunteer survey results. Also, as
pointed out in the finding, a market basket survey was not performed in 2008.

While management concurred with recommendation D.1.3, we take exception to
management’s accompanying statement that “The AO will review inventory against
receiving reports and requisition forms as necessary.” Peace Corps Manual policy, and
our recommendation, is explicit in requiring reconciliations by the administrative officer
“at least once a quarter.” In our opinion, strict adherence to agency policy is essential to
ensure that the deficiencies noted in property inventory do not recur.

While management concurred with recommendation F.1.2, which relates to the
miscalculation of PSC contracts for 2009 and 2010, we take exception to management’s
rationalization that “GAO standards acknowledge that internal control provides
reasonable, not absolute, assurance.” In our opinion, it is essential that the administrative
officer perform adequate and effective review and oversight to ensure that PSC contracts
are accurate in all respects before they are signed by the country director and provided to
staff.

In their response, management described actions they are taking or intend to take to
address the issues that prompted each of our recommendations. We wish to note that in
closing recommendations, we are not certifying that the region or post has taken these
actions nor that we have reviewed their effect. Certifying compliance and verifying
effectiveness are management’s responsibilities. However, when we feel it is warranted,
we may conduct a follow-up review to confirm that action has been taken and to evaluate
the impact.
APPENDIX D

            AUDIT COMPLETION AND OIG CONTACT

AUDIT COMPLETION
Acting Assistant Inspector General for Audit Steven Kaffen performed the audit of Peace
Corps/Kenya.


OIG CONTACT
If you wish to comment on the quality or usefulness of this report to help us strengthen
our product, please email Steven Kaffen, Acting Assistant Inspector General for Audit, at
skaffen@peacecorps.gov, or call him at 202.692.2905.
         REPORT FRAUD, WASTE, ABUSE,
            AND MISMANAGEMENT

Fraud, waste, abuse, and mismanagement in government affect
everyone from Peace Corps Volunteers to agency employees to the
general public. We actively solicit allegations of inefficient and
wasteful practices, fraud, abuse, and mismanagement related to
Peace Corps operations domestically or abroad. You can report
allegations to us in several ways, and you may remain anonymous.




Mail:          Peace Corps
               Office of Inspector General
               P.O. Box 57129
               Washington, DC 20037-7129

Phone:         24-Hour Toll-Free:                  800.233.5874
               Washington Metro Area:              202.692.2915


Fax:           202.692.2901

Email:         oig@peacecorps.gov
